U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 15, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Willis, Carrie S., Individually and as Trustee of the Trust of James C.
and Norma D. Willis v. United States of America
S.Ct. No. 21-311
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 27,
2021, and placed on the docket on August 31, 2021. The government’s response is due on
September 30, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including November 1, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Brian Fletcher
Acting Solicitor General
cc: See Attached Service List

21-0311
WILLIS, CARRIE S., INDIVIDUALLY AND AS
TRUSTEE OF THE TRUST OF JAMES C. AND
NORMA D. WILLIS
USA

YAIRA DUBIN
O'MELVENY & MYERS LLP
TIMES SQUARE TOWER
7 TIMES SQUARE
NEW YORK, NY 10036
212-728-5946
JEFFREY L. FISHER
STANFORD LAW SCHOOL
559 NATHAN ABBOTT WAY
STANFORD, CA 94305
650-724-7081
JLFISHER@LAW.STANFORD.EDU
GRANT RAHMEYER
STRONG-GARNER-BAUER P.C.
415 E. CHESTNUT EXPWY.
SPRINGFIELD, MO 65802
KENDALL KELLY ALEXIS TURNER
O'MELVENY & MYERS LLP
1625 I ST., NW
WASHINGTON, DC 20009
202-383-5204
KENDALLTURNER@OMM.COM

